          U.S. Department of Education

      Office of Inspector General




Semiannual Report to Congress: No. 47
   April 1, 2003 - September 30, 2003
  U.S. Department of Education

Office of Inspector General




Semiannual Report to Congress: No. 47
   April 1, 2003 - September 30, 2003
                            UNITED STATES DEPARTMENT OF EDUCATION
                                                OFFICE OF INSPECTOR GENERAL

                                                                                                               THE INSPECTOR GENERAL




                                                                                       October 31, 2003



Dear Mr. Secretary:
I am pleased to submit to you, in accordance with the Inspector General Act of 1978 (Public Law
95-452, as amended, section 5(b)), this semiannual report on the activities of the Department’s
Office of Inspector General for the six-month period ending September 30, 2003.

Our independent audits, investigations, and inspections support the goals of the President’s
Management Agenda, provide recommendations for improvements in the Department’s
programs, and work to protect their integrity. We look forward to our continued partnership
toward our common objective of a Department of Education that delivers the best services
possible to our nation’s students.

The Inspector General Act requires you to transmit this report within 30 days to the appropriate
congressional committees and subcommittees, together with a report containing any comments
you wish to make. Your report should also include the statistical tables specified in section
5(b)(2) and (3), and a statement with respect to audit reports on which management decisions
have been made, but final action has not been taken, as specified in section 5(b)(4).

                                                                     Sincerely,




                                                                     John P. Higgins, Jr.

Enclosure



                          400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510
            Our mission is to ensure equal access to education and to promote educational excellence throughout the nation.
                                                           Contents
MESSAGE TO CONGRESS
ACTIVITIES AND ACCOMPLISHMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PMA Goal: Elimination of Fraud and Error in Student Aid Programs . . . . . . . . . . . . . . . . 1
   Oversight of guaranty agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Accrediting agency standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
   PLUS loan disbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
   Administrative capability standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
   Direct Loan refunds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
   Identity theft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
   Fraud by school officials and employees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
   Campus crime statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
   Lender inducements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
PMA Goal: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
   Contract monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
   Internal control . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
PMA Goal: Budget and Performance Integration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
   Government Performance and Results Act reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
   Vocational Education performance data reporting. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
   Migrant education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
   Charter schools’ access to ESEA, Title I, Part A funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Eligibility for GEAR UP Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Virgin Islands management of federal education funds. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Virgin Islands equipment inventory control . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
   Grantee contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
   Talent Search at Case Western Reserve. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
   Fraud against Department grant program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
   Title I fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
PMA Goal: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
   Financial management systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Capital planning and investment management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   FISMA and contingency planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Other Activities and Accomplishments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Single audit national project. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Nonfederal audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Reporting Requirements of the Inspector General Act, as amended . . . . . . . . . . . . . . . . . . 11
Table 1: Recommendations Described in Previous Semiannual Reports on Which
            Corrective Action Has Not Been Completed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Table 2: ED/OIG Audit Services Reports on Education Department Programs and Activities
            (April 1, 2003 to September 30, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Table 3: Other ED/OIG Reports on Education Department Programs and Activities
            (April 1, 2003 to September 30, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Table 4: Inspector General Issued Audit Reports with Questioned Costs . . . . . . . . . . . . . . . . . 17
Table 5: Inspector General Issued Audit Reports with Recommendations for
           Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Table 6: Unresolved Reports Issued Prior to April 1, 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Table 7: Investigation Services Cumulative Actions (April 1, 2003 to September 30, 2003) . . 24
Table 8: Statistical Profile: April 1, 2003 to September 30, 2003 . . . . . . . . . . . . . . . . . . . . . . . 28
                            INSPECTOR GENERAL’S
                           MESSAGE TO CONGRESS


We are pleased to provide this semiannual report on the accomplishments of the Office of
Inspector General (OIG), U.S. Department of Education (Department), from April 1, 2003
through September 30, 2003. During this period, we issued 61 audit and inspection reports and
memoranda and closed 105 investigations. We also testified before Congress on fraud, waste, and
abuse in student financial assistance programs, and provided suggestions for reauthorization of
the Higher Education Act.

Our findings and recommendations are an important resource for assisting the Department in
addressing its management challenges and in meeting the goals of the President’s Management
Agenda. We focus the majority of our resources on student financial assistance programs which
account for more than half of the Department’s $50 billion budget and an additional $265 billion
loan portfolio.

Our investigative work is disclosing that identity theft is a growing risk to the integrity of student
aid programs. We have investigated cases of individuals who used deceased persons’ identities,
stolen identities, and identities of relatives to fraudulently attempt to obtain student aid. For
example, we recently investigated an individual who used fifty different identities, many of them
of prison inmates, in an attempt to obtain more than $300,000 in benefits. Another investigation
disclosed an individual who used multiple false identities claiming attendance at several different
schools in the United Kingdom to apply for more than $40 million in student aid.

              We are reviewing data to determine the validity of applicants’ Social Security
              numbers, dates of birth and other identifying information. In cooperation with the
              Federal Student Aid office, we created a website, www.ed.gov/misused, to alert
              students and schools about the threat of identity theft and how to report this crime
              when it involves federal education funds.

This year marks the 25th anniversary of the Inspector General Act. We are proud of the
contribution that our work is making to the effectiveness and efficiency of the Department’s
programs, to the integrity of its operations, and to detecting and preventing fraud, waste, and
abuse. Access to quality education is one of our nation’s fundamental values and is essential for
its strong and secure future. We look forward to continuing to work with the Secretary and the
Congress to make a positive difference in the quality of the Department’s service to students and
taxpayers.


                                                     John P. Higgins, Jr.
                                                     Inspector General
Activities and Accomplishments
                 The Office of Inspector General (OIG) for the period April 1, 2003 through September 30,
                 2003, continued its work to improve the programs and operations of the Department of
                 Education (Department) and to protect their integrity. We have summarized our work in
                 support of the mandates of the President’s Management Agenda (PMA). Detailed
                 information is available on our website at http://www.ed.gov/about/offices/list/oig.

                 PMA Goal: Elimination of Fraud and Error in Student
                           Aid Programs
                 We have committed considerable audit and investigative resources to detect and prevent
                 fraud, waste, and abuse in student aid programs, the largest-dollar programs administered
                 by the Department. These programs have been on the General Accounting Office’s
                 (GAO) high risk list since 1990. While the Department has made some progress, reducing
                 risk in the student aid programs continues to be a management challenge for the
                 Department.

                                                      In July, Inspector General John P. Higgins, Jr. testified
                                                      before the House Budget Committee on fraud, waste, and
                                                      abuse in student financial aid programs based on our
                                                      extensive audits and investigations. We recommended
                                                      two corrective actions that would have the most
                                                      immediate impact in improving accountability in these
                                                      programs: an income match with data submitted to the
                                                      Internal Revenue Service and more effective monitoring
                                                      by the Department. An income match would help reduce
                                                      improper payments by ensuring that the information on
                                                      applicants’ student aid applications matches the income
                                                      reported on their tax returns. More effective monitoring
                 Testifying before the House Budget   would help ensure that Department funds are used
                 Committee
                                                      effectively and efficiently, and reduce the potential for
                                                      fraud, waste, and abuse.

OVERSIGHT   OF   We continue to find that guaranty agencies are not in compliance with the Higher
GUARANTY         Education Act (HEA) and with federal regulations governing the establishment and
AGENCIES         operation of the Federal Family Education Loan (FFEL) program Federal and Operating
                 Funds.

                 We conducted audits to formulate an overall conclusion on the adequacy of the
                 Department’s oversight of guaranty agencies’ establishment and operation of these funds.
                 Our audits of nine guaranty agencies during this and previous periods concluded that the
                 Department should improve its monitoring process and should issue instructions to
                 recognize ownership of federal assets and usage fees. Four guaranty agencies understated
                 the beginning balances of the Federal Funds by more than $15 million; three agencies used
                 more than $17 million in federal funds for unauthorized purposes; and two did not deposit
                 approximately $550,000 into the Federal Fund. In addition, the Department did not recall



                                                       1
                                                                 Semiannual Report To Congress: #47

               excess reserves of approximately $103 million, as it could have under an agreement
               between a guaranty agency and the Department.

               We recommended that the Department revise its program review guide and review the 27
               guaranty agencies we have not examined. The Department generally agreed with our
               recommendations. (“Oversight Issues Related to Guaranty Agencies’ Administration of
               the Federal Family Education Loan Program Federal and Operating Funds,” ED-OIG/A05-
               D0010; July 31, 2003)

               Our audit of the Colorado Student Loan Program’s (CSLP) establishment and use of
               Federal and Operating Funds for the FFEL program found that CSLP inappropriately used
               loan-servicing expenditures to calculate the amount of funds it transferred from the
               Federal Fund, resulting in a transfer of approximately $1.63 million in excess of the
               amount allowable under the HEA. CSLP also did not deposit $302,824 from the Loan
               Servicing Unit to the Federal Fund, and used reserve funds to pay for $236,000 of
               unallowable expenditures.

               We recommended that Federal Student Aid (FSA) require CSLP to return to the Federal
               Fund $547,185 in imputed interest on all of our findings. CSLP transferred approximately
               $236,000 to the Federal Fund but did not agree with our other findings. CSLP was one of
               the nine guaranty agencies included in our audit of oversight issues. (“The Colorado
               Student Loan Program’s Establishment and Use of Federal and Operating Funds for the
               Federal Family Education Loan Program,” ED-OIG/A07-C0009; July 23, 2003)

ACCREDITING    Our audit of the Department’s review of accrediting agency standards and procedures
AGENCY         found that the Department needs to improve its management controls over evaluations of
STANDARDS      accrediting agencies that participate in Title IV programs. We concluded that the
               Department did not require regional accrediting agencies to establish quantitative student
               achievement standards for institutions offering vocational education programs, as required
               by federal regulations. It also did not meet GAO’s minimum level of quality for
               management controls, and so, could not ensure consistent evaluation of accrediting
               agencies’ standards. The Department agreed with some of our findings and
               recommendations, and is evaluating alternatives to one of the recommendations. (“Office
               of Postsecondary Education, Accrediting Agency Evaluation Unit’s Review of Selected
               Accrediting Agency Standards and Procedures,” ED-OIG/A09-C0014; July 23, 2003)

PLUS LOAN      Our audits of citizenship requirements for PLUS program loan borrowers at two schools
DISBURSEMENT   determined that ineligible non-citizens could receive PLUS loans. The Department has not
               established the same verification requirements for parents as those that apply to student
               borrowers, as required by the HEA. The Department must be able to verify the citizenship
               status of PLUS loan parents and endorsers to prevent ineligible non-citizens from
               receiving Title IV funds, and we suggested that the Department develop verification
               procedures. The Department disagreed with our suggestions, but stated that it plans to
               draw a sample of PLUS borrowers from the National Student Loan Data System and assess
               the Title IV eligibility of the students on whose behalf these parents borrowed. (“PLUS
               Could Be Disbursed to Ineligible Non-Citizens,” ED-OIG/E06-D0008; August 22, 2003)




                                                 2
                                                                       Semiannual Report To Congress: #47

ADMINISTRATIVE     Our audit at Advanced Career Training Institute (ACT), a proprietary institution with
CAPABILITY         campuses in Georgia and Florida, concluded that ACT did not meet the administrative
STANDARDS          capability standards required to participate in Title IV programs. We identified significant
                   problems with the 90/10 rule revenue percentage, cash management, student eligibility,
                   Direct Loan reconciliation, and refunds/return of funds of Title IV funds.

                   We recommended that FSA recover $7.4 million in Title IV funds provided to ACT during
                   fiscal year 2000 and consider terminating ACT’s participation in Title IV programs. If
                   FSA allows ACT to continue participating in Title IV, it should require ACT to implement
                   controls and procedures to address the deficiencies we identified. ACT agreed with most
                   of our findings and recommendations. (“Advanced Career Training Institute’s
                   Administration of the Title IV Higher Education Act Programs,” ED-OIG/A04-B0019;
                   September 22, 2003)

DIRECT LOAN        Our audit at Alcorn State University (ASU), Lorman, Mississippi, found that ASU did not
REFUNDS            identify and calculate refunds for students who officially withdrew or were identified as
                   having officially withdrawn. ASU also did not always send refunds to the Department,
                   and those that were returned were not always returned in a timely manner. In addition,
                   ASU did not determine the withdrawal date and process refunds for students who dropped
                   out. Our audit covered school fiscal years 1998-1999 through 2000-2001, during which
                   ASU received a total of $39.6 million in Department funds.

                   We recommended that FSA require ASU to develop and implement specified policies,
                   procedures, and management controls, return $83,386 in refunds to the Department, and
                   pay imputed interest costs totaling $247,064 for excess cash retained. ASU disagreed with
                   some of our recommendations. (“Alcorn State University’s Administration of Title IV
                   Student Financial Assistance Programs Needs Strengthening,” ED-OIG/A04-B0018;
                   August 15, 2003)

IDENTITY   THEFT   We investigate many cases of individuals who commit identity theft to obtain student
                   financial assistance they are not entitled to receive. We are also conducting an analysis of
                   identity theft trends. Examples of some of our cases follow.

                   An individual was arrested at Mesa Community College in Arizona after he tried to claim
                   a student loan check under an assumed name. Our investigation disclosed that he used the
                   identities of inmates serving lengthy prison sentences to obtain more than $300,000 in
                   student aid. When he tried to claim a student loan check under one name, an employee
                   recognized him as the same person who had claimed an aid check under a different name
                   the previous day. When campus police apprehended him, he produced identification under
                   yet another name and was carrying identification for three other people.

                   OIG special agents arrested a man in Colorado who allegedly received approximately
                   $160,000 in student loans by falsely claiming that he and his brother were graduate
                   students at a university in the United Kingdom. We identified more than 2,000 additional
                   fraudulent loan applications that may be part of this scheme, requesting more than $40
                   million in loans for attendance at schools in the United Kingdom. This is a joint
                   investigation with the U.S. Postal Service.




                                                      3
                                                                     Semiannual Report To Congress: #47

                The former financial aid director of a photography school in Boston pled guilty after our
                investigation disclosed that while serving as the financial aid officer at the school, he used
                a fictitious name to submit and certify several FFEL applications. He received more than
                $14,000 in loans as a result.

FRAUD  BY       OIG special agents investigate cases of school officials and employees who use their
SCHOOL          positions to fraudulently obtain student aid money. We investigated a trade school owner
OFFICIALS AND   who had been debarred by the Department for his improper activities while associated with
EMPLOYEES       several schools in Florida. Our investigation disclosed that he had subsequently purchased
                a beauty school in Puerto Rico, concealed his ownership of the school, and embezzled
                $600,000 in Pell grants. As a result, he received a second jail term and was ordered to pay
                $600,000 restitution.

                A former financial aid officer at a nursing school in New York pled guilty after she
                submitted and processed 46 fraudulent FFEL applications using her name and the names
                of other people. She received $248,500 as a result. Another individual who received more
                than $180,000 for her part in this scheme also pled guilty.

CAMPUS  CRIME   We issued an inspection memorandum on the Department’s implementation of the Jeanne
STATISTICS      Clery Disclosure of Campus Security Policy and Campus Crime Statistics Act. This Act
                requires all postsecondary institutions eligible to participate in the Title IV programs to
                publish an annual security report. We recommended that the Department, in cooperation
                with outside experts, produce a definitive handbook for institutions that is useful,
                complete, and accurate, and ensure that security officers and Department staff receive
                sufficient training in campus crime statistics reporting. The Department generally agreed
                with our findings and recommendations. (“Campus Crime Statistics Reporting and the
                Clery Act,” ED/OIG I13-D0015; August 26, 2003)

LENDER          We issued an alert memorandum in response to an allegation that Sallie Mae was offering
INDUCEMENTS     schools illegal inducements in return for FFEL loan volume, in violation of the HEA. We
                recommended that the Department clarify the application of the statute’s anti-inducement
                provision to private loans and re-evaluate that provision to determine if statutory changes
                should be made. The Department advised OIG that it plans to address the issues raised by
                the memorandum. (“Review of Lender Inducements,” ED-OIG/I13-C0003; August 1,
                2003)

                PMA Goal: Improved Financial Performance
                Sound financial management is essential to the Department’s ability to provide accurate
                financial information, to manage for results, and to ensure operational integrity. Robust
                contract monitoring is fundamental to accountability in financial management.

CONTRACT        Our review of the Department’s ability to identify and monitor high risk contracts found
MONITORING      that the Department does not define a high risk contract, or provide guidelines for program
                offices to use in monitoring these contracts. We suggested that the Department include a
                definition of a high risk contract and specific guidelines for identifying and monitoring
                these contracts in the directive it is currently revising. (“Audit of the Department's Ability
                to Identify and Monitor High-Risk Contracts,” ED-OIG/X05-D0022; September 18, 2003)


                                                    4
                                                               Semiannual Report To Congress: #47

           We also conducted pre-award reviews of two proposals for FSA’s Common Services for
           Borrowers contract.

           In other work, we examined a service contract for an inventory of the Department’s
           information technology equipment at all its locations. Based on our review, we alerted the
           Department that this contract was not performance-based and that handling of
           performance issues needed to be improved in accordance with federal regulations. The
           Department concurred with our suggestions for improvement. (“Contract for Equipment
           Inventory Services,” ED-OIG/E19-D0004; May 19, 2003)

           We issued a memorandum on our audit of a contract between the Department and Abt
           Associates, Inc., to provide information to the Department on contract negotiations,
           performance measures, and monitoring. The Department agreed to take corrective action
           to address the issues we raised. (“Contract Negotiations, Contract Performance Measures,
           and Contract Monitoring,” ED-OIG/X02-D0010; July 11, 2003)

           Our contract closeout audit of Appalachia Educational Laboratory (AEL) found that AEL
           received $344,530 more than the approved contract amount and $258,983 more in indirect
           costs than allowed. AEL agreed that it received excess funds for the contract, and advised
           us it was awaiting the Department’s decision on a possible contract modification before
           making the appropriate refund. (“Contract Closeout Audit at Appalachia Educational
           Laboratory,” ED-OIG/A04-C0020; July 28, 2003)

INTERNAL                                          We completed several investigations of employees
CONTROL                                           who used their positions to defraud the Department.
                                                  All 19 defendants, eight of whom were Department
                                                  employees, have been sentenced in our investigation
                                                  of a conspiracy that defrauded the Department of
                                                  approximately $1.3 million in electronic equipment
                                                  and false overtime charges. The Department
                                                  employee who led the conspiracy was sentenced to 54
                                                  months in prison, her husband received a 27-month
                                                  sentence and a $50,000 fine, and her son received a
                                                  16-month prison term. We recovered over 500 items
                                                  of electronic equipment from this investigation.

           Our investigation of two Department employees who used their government credit cards to
           illegally obtain more than $163,000 in goods and services for personal use resulted in a 33-
           month jail term and an order to pay $146,977 restitution for one of the employees. The
           other individual is awaiting sentencing.

           In another case of criminal activity by a Department employee, an individual was
           sentenced to 21 months incarceration for using his Department computer to download
           sexually explicit material depicting minors.

           PMA Goal: Budget and Performance Integration
           Performance and results are increasingly linked to budget and funding decisions at the
           federal and grant recipient levels. Accurate and reliable data are also essential to


                                              5
                                                                    Semiannual Report To Congress: #47

                 implementing the No Child Left Behind Act, as that statute ties funding decisions to school
                 performance.

GOVERNMENT       Our audit of the Rehabilitative Services Administration’s
PERFORMANCE      (RSA) reporting under the Government Performance and
AND RESULTS      Results Act found that internal controls for databases
ACT REPORTING    used for reporting required data should be strengthened.
                 Specifically, we concluded that RSA did not remit data in
                 a timely manner and did not make full disclosure on the
                 limitations of its data. The Department generally
                 concurred with our findings. (“Review of Data
                 Reliability for Rehabilitative Services Administration
                 Reporting Under the Government Performance and
                 Results Act,” ED-OIG/A02-B0023; May 30, 2003)


VOCATIONAL       We completed audits of Indiana’s and Florida’s management controls over Carl D. Perkins
EDUCATION        Vocational and Applied Technology Education Act of 1998 (Perkins III) performance data.
PERFORMANCE      We found that both states lacked adequate controls to ensure that the performance data
DATA REPORTING   reported to the Department for program year 2000-2001 were complete, accurate, and
                 reliable. We recommended that the Department ensure that Indiana’s Department of
                 Workforce Development develop and implement appropriate controls, policies, and
                 procedures to ensure that Perkins III performance data are complete, accurate, and reliable.
                 Indiana did not provide written comments on our findings. (“Audit of Indiana’s
                 Management Controls Over Perkins III Performance Data,” ED-OIG/A05- D0012;
                 September 11, 2003)

                 We found that the Florida Department of Education had established a number of controls
                 to ensure the quality of it performance data, but we determined that it needs to strengthen
                 controls over its process to collect and report Perkins III performance data to the
                 Department to ensure that the data are complete, accurate, and reliable. Florida stated that
                 it had completed some actions and was implementing additional controls to ensure the
                 quality of the Perkins III performance data. (“Audit of Florida’s Management Controls
                 over Perkins III Performance Data,” ED-OIG/A03-C0019; July 30, 2003)

MIGRANT                                         We issued a report summarizing our audit findings on
EDUCATION                                       procedures at the Texas, Florida, Kansas, and California
                                                state education agencies for identifying migrant children
                                                who qualify for “priority for services.” We found that
                                                none of the four states had established and implemented
                                                appropriate procedures to identify and target services to
                                                migratory children eligible for these services. In
                                                addition, none of the four states had established
                                                procedures for reporting to the Department an accurate
                                                number of priority for services migratory children served.
                                                As a result, the Department cannot determine whether
                 $212.2 million in Elementary and Secondary Education Act (ESEA), Title I, Part C
                 Migrant Education program funds these states received in fiscal year 2001 was used to



                                                    6
                                                                       Semiannual Report To Congress: #47

                    provide services to priority for services migratory children before services were provided
                    to other migratory children. We believe it is likely that more states have not complied with
                    priority for services requirements.

                    We suggested that the Department provide additional guidance and technical assistance to
                    all states on the priority for services requirements. The Department generally concurred
                    with our suggestions, and has outlined corrective actions. (“States’ Compliance with
                    Priority for Services for Migratory Children,” ED-OIG/X06-D0021; September 30, 2003)

CHARTER             Our audit of the New York State Education
SCHOOLS’ ACCESS     Department (NYSED) and three local educational
TO ESEA, TITLE      agencies (LEAs) found that one LEA did not
I, PART A FUNDS     allocate the proportionate amount of funds to one
                    charter school, and none of the LEAs provided
                    new or expanding charter schools with timely
                    access to the funds. We also found that charter
                    schools could benefit from additional information
                    on the Elementary and Secondary Education Act
                    consolidated application process. NYSED
                    concurred with our recommendations, and stated
                    that it has taken steps to implement them.
                    (“Charter Schools Access to Title I Funds in the
                    State of New York,” ED-OIG/A09-D0014; July 28, 2003)

ELIGIBILITY   FOR   We found that Valencia Community College (VCC) did not administer the matching
GEAR UP             requirements for its Gaining Early Awareness and Readiness for Undergraduate Programs
PROGRAM             (GEAR UP) projects in accordance with legislative, regulatory, and administrative
                    requirements. Six of the partnerships did not contribute $1,600,749 of the required match,
                    and VCC claimed unallowable matching costs of $4,105,975. We recommended that the
                    Department require VCC officials to refund $496,932 of federal expenditures and
                    $1,325,932 of federal funds for unallowable matching costs. VCC did not concur with
                    most of our findings or recommendations. (“Audit of Valencia Community College’s
                    Gaining Early Awareness and Readiness for Undergraduate Programs Matching
                    Requirement,” ED-OIG/A07-B0011; May 8, 2003)

VIRGIN ISLANDS      Our audit found that the Virgin Islands Department of Education (VIDE) had about $6.8
MANAGEMENT OF       million in Department funds that lapsed over a six-year period, improperly expended $1.5
FEDERAL             million in expired Department funds, and failed to use or return $482,085 in duplicate
EDUCATION           payments in a timely manner. We recommended that VIDE return $1.5 million to the
FUNDS               Department and take specified steps to address the other identified weaknesses. VIDE did
                    not agree with the recommendations to return funds, but agreed to implement the
                    remaining recommendations. The September 2002 Compliance Agreement between the
                    Department and the Virgin Islands requires VIDE to develop solutions to problems in
                    managing federal education funds and programs. (“The Virgin Islands Department of
                    Education Did Not Manage Its Federal Education Funds,” ED-OIG/A02-C0012;
                    September 30, 2003)




                                                       7
                                                                     Semiannual Report To Congress: #47

VIRGIN ISLANDS    Our audit of VIDE-St. Thomas’s controls over equipment purchased with Department
EQUIPMENT         funds found that VIDE-St. Thomas did not maintain adequate controls and could not
INVENTORY         account for $1,451,218 in equipment. We recommended that the Department require
CONTROL           VIDE-St. Thomas to account for all equipment or return $1,451,218 to the Department.
                  VIDE outlined corrective actions to address control weaknesses we identified. (“The
                  Virgin Islands Department of Education - St. Thomas/St. John School District’s Control of
                  Equipment Inventory,” ED-OIG/A02-C0011; June 5, 2003)

GRANTEE           We audited the Puerto Rico Department of Education (PRDE) to determine if PRDE
CONTRACTS         properly administered contracts awarded to the League of United Latin American Citizens
                  National Educational Service Center (LNESC). We found that PRDE did not have the
                  required supporting documentation, and paid $109,701 in unsupported costs and $5,689 in
                  questioned costs to LNESC. PRDE did not concur with our findings, but stated that it
                  plans to implement controls to meet program requirements. (“Puerto Rico Department of
                  Education’s Administration of Contracts with the League of United Latin American
                  Citizens National Educational Service Center,” ED-OIG/A02-C0017; June 10, 2003)

TALENT SEARCH     Our audit of the Talent Search program at Case Western Reserve University, Cleveland,
AT CASE           Ohio found that the program served significantly fewer participants than it was funded to
WESTERN           serve or than required by regulation, making it ineligible for federal funds for the period
RESERVE           covered. We recommended that the Department require Case Western to refund the entire
                  $212,428 expended for the program during the 2001-2002 budget period, and establish and
                  properly document procedures to ensure that only eligible participants receiving eligible
                  services are counted as Talent Search participants. We also recommended that the
                  Department monitor the university’s current Talent Search project to determine whether it
                  will be able to meet required minimum participant numbers or should have its grant
                  withdrawn. The university did not concur with our finding or refund recommendation.
                  (“Talent Search Program at Case Western Reserve University,” ED-OIG/A07-D0002; July
                  11, 2003)

FRAUD AGAINST     OIG special agents facilitated the June 2003 debarment of a grant writer in Wyoming who
DEPARTMENT        pled guilty after she backdated grant applications for the Upward Bound and McNair
GRANT PROGRAM     programs. A U.S. Postal Inspection Service investigation found that she used U.S. Postal
                  Service cancellation equipment that she obtained illegally to execute her scheme. She
                  admitted that she began backdating applications in 1997 when she was unable to meet
                  deadlines.

TITLE I   FRAUD   An engineer at a high school in New York pled guilty after he falsely claimed that his son
                  had performed custodial work at the school. His son received over $19,000 for the alleged
                  work; some of this money was Title I funds. In this joint investigation with the Federal
                  Bureau of Investigation, we found that during the time he was allegedly employed in New
                  York, the individual’s son was living in California.

                  PMA Goal: Expanded Electronic Government
                  We continued our work to evaluate the Department’s progress to secure its information
                  technology (IT) resources and to protect the systems used to administer the billions of
                  education dollars under its stewardship.


                                                     8
                                                                  Semiannual Report To Congress: #47

FINANCIAL      We conducted an audit to identify potential risk areas in the development and
MANAGEMENT     implementation of FSA’s Oracle Federal Financial Management System. Our audit
SYSTEMS        focused on future system operations, security, interfacing, and program management. We
               made recommendations for FSA to provide a more accurate and timely interface with the
               Department’s Oracle Federal Financial Management System. FSA concurred with our
               findings and recommendations, and prepared a corrective action plan to address the issues
               raised. (“Audit of Federal Student Aid’s Development and Implementation of Oracle
               Federal Financials,” ED-OIG/A11-C0011; May 22, 2003)

CAPITAL        We reviewed the Department’s IT capital planning and investment review process. We
PLANNING AND   found that the Department lacked adequate management processes to ensure that IT
INVESTMENT     investment decisions were consistent with the enterprise architecture it is developing.
MANAGEMENT     Such processes are necessary for IT systems to function well across the Department. The
               Department generally agreed with our findings and recommendations, and stated that
               improvements had been incorporated in its most current IT investment management
               process. (“Audit of Capital Planning and Investment Management,” ED-OIG/A07-C0033;
               September 12, 2003)

FISMA  AND     Our audit of the Department’s implementation of the Federal Information Security
CONTINGENCY    Management Act (FISMA) determined that the Department has not fully implemented an
PLANNING       agency-wide information security program in accordance with FISMA. We also identified
               significant security weaknesses on the servers and databases that support the Department’s
               mission-critical systems. The Department concurred with our findings and
               recommendations, is currently addressing the identified vulnerabilities, and has embarked
               upon a formal certification and accreditation process for all systems, which it plans to
               complete by December 2004. (“Department of Education’s Implementation of FISMA,”
               ED-OIG/A11-D0003; September 22, 2003)

               The objective of our audit of contingency planning for select FSA information systems
               was to assess the viability and adequacy of IT contingency provisions implemented by
               FSA, and the Department’s preparedness to operate student financial aid services in the
               event of a disruption. We found that FSA needs to improve IT contingency planning,
               testing, and coordination. The Department concurred with our findings and
               recommendations, and described actions taken or underway that will address many of the
               weaknesses we identified. (“Review of Contingency Planning for Select U.S. Department
               of Education Information Systems - Federal Student Aid,” ED-OIG/A11-C0010;
               September 30, 2003)

               Other Activities and Accomplishments

SINGLE AUDIT   We are leading the National Project to Statistically Measure the Quality of Single Audits, a
NATIONAL       two-year interagency project, under the auspices of the President’s Council on Integrity
PROJECT        and Efficiency. The purpose of this project is to assess the quality of single audits
               submitted to the Department by grant recipients.

NONFEDERAL     Participants in Department programs are required to submit annual audits performed by
AUDITS         independent public accountants (IPAs). We perform quality control reviews (QCRs) of
               these audits to assess their quality. Our 51 QCRs of audits conducted by 50 different IPAs,


                                                  9
                                                    Semiannual Report To Congress: #47

or offices of firms with multiple offices, found that 28 (55%) of the audits were acceptable,
17 (33%) were technically deficient, and 6 (12%) were substandard. We also referred
three IPAs to the appropriate state boards of accountancy and, if members, to the American
Institute of Certified Public Accountants for possible disciplinary action for substandard
work. These IPAs were referred for work reported in a prior semiannual report.

We also published an updated audit guide for lenders and lender servicers applying for
“exceptional level of performance” status in servicing FFEL loans. The guide is available
at http://www.ed.gov/about/offices/list/oig/nonfed/epguidefinal.pdf.




                                   10
                                                                                    Semiannual Report To Congress: #47

Reporting Requirements of the Inspector General Act, as amended
                                                                                                          Table          Page
    Section                                         Requirement                                          Number         Number
5(a)(1) and
                 Significant Problems, Abuses, and Deficiencies
5(a)(2)
                 Activities and Accomplishments                                                                            1

5(a)(3)          Uncompleted Corrective Actions
                 Recommendations Described in Previous Semiannual Reports on Which Corrective
                                                                                                            1              11
                 Action Has Not Been Completed
5(a)(4)          Matters Referred to Prosecutive Authorities
                 Investigation Services Cumulative Actions (October 1, 2002 to March 31, 2003)              7              22
                 Statistical Profile                                                                        8              27
5(a)(5) and
                 Summary of Instances Where Information Was Refused or Not Provided
6(b)(2)
5(a)(6)          Listing of Audit Reports
                 ED/OIG Audit Services Reports on Education Department Programs and Activities              2              13
5(a)(7)          Summary of Significant Audits
                 Activities and Accomplishments
5(a)(8)          Audit Reports Containing Questioned Costs
                 Inspector General Issued Audit Reports with Questioned Costs                               4              16
5(a)(9)          Audit Reports Containing Recommendations That Funds Be Put to Better
                 Use
                 Inspector General Issued Audit Reports with Recommendations for Better Use of
                                                                                                            5              18
                 Funds
5(a)(10)         Summary of Unresolved Audit Reports Issued Prior to the Beginning of
                 the Reporting Period
                 Unresolved Reports Issued Prior to April 1, 2003                                           6              18
5(a)(11)         Significant Revised Management Decisions
5(a)(12)         Significant Management Decisions with Which OIG Disagreed
                 Unmet Intermediate Target Dates Established by the Department Under
5(a)(13)
                 the Federal Financial Management Improvement Act of 1996


Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed
                                                                                    Total             Number of            Latest
  Report           Report Title (Prior Semiannual           Date        Date     Monetary         Recommendations         Target
  Number          Report [SAR] Number and Page)            Issued Resolved Findings               Open          Closed     Date
Section 5(a)(3) of the Inspector General Act as amended requires a listing of each report resolved before the commencement of the
reporting period for which management has not completed corrective action. The reports listed below are OIG internal and nationwide
audit reports.




                                                                11
                                                                                    Semiannual Report To Congress: #47

Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed (Cont.)
                                                                            Total                Number of               Latest
 Report          Report Title (Prior Semiannual            Date   Date    Monetary            Recommendations            Target
 Number         Report [SAR] Number and Page)             Issued Resolved Findings            Open      Closed            Date
NEW AUDITS SINCE LAST REPORTING PERIOD
Federal Student Aid
A06-A0020 Audit of the Effectiveness of the              3/28/02     6/30/02                    *              4            *
          Department’s Student Financial Aid
          Application Verification Process (SAR 44,
          pg. 7)
Office of the Chief Financial Officer
A17-B0006 Audited Financial Statements - U.S.       2/27/02          8/31/02                    1             13        10/31/03
          Department of Education Years Ended
          September 30, 2001 and 2000 (SAR 44, pg.
          15)
A17-B0007 Audited Financial Statements - U.S.       2/27/02          8/31/02                    1             11        10/31/03
          Department of Education Student Financial
          Assistance Years Ended September 30, 2001
          and 2000 (SAR 44, pg. 4)
Office of the Chief Information Officer
A11-A0009 Disaster Recovery and Backup Plans for         11/28/01 4/30/02                       1              4        10/31/03
          Selected Information Technology Systems
          (SAR 44, pg. 6)
AUDITS REPORTED IN PREVIOUS SEMIANNUAL REPORTS
Federal Student Aid
A01-90005 The Recertification Process for Foreign        9/29/00     3/31/01                    *              4            *
          Schools Needs to Be Improved
          (SAR 41, pg. 23)
A05-A0025 Great Lakes Higher Education Guaranty          3/30/01     1/31/02                    4              3         3/31/04
          Corporation’s (Great Lakes Guaranty)
          Administration of the Federal Family
          Education Loan (FFEL) Program Federal
          and Operating Funds (SAR 42, pg. 22)
Office of the Chief Financial Officer
A03-B0018 Audit of the U.S. Department of Education’s 10/24/01 3/26/02                          2              0         9/30/04
          Discretionary Grants Monitoring Process
          (SAR 44, pg. 3)
Office of the Chief Information Officer
A11-A0011 Audit of the Department’s Records              9/27/01     3/28/02                    1              6         11/30/03
          Management Program (SAR 43, pg. 11)
Office of Postsecondary Education
A04-90013 Office of Higher Education Programs Needs 12/27/00 1/31/02                             *            17            *
             To Improve its Oversight of Parts A and B of
             the Title III Program (SAR 42, pgs. 10 & 11)
* Corrective Actions have been compeleted by the Action Office but the audit was not closed by the Department before the reporting
period ended (9/30/03).




                                                                12
                                                                                       Semiannual Report To Congress: #47



Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (April 1, 2003 to September 30, 2003)
  Report                                                               Date      Questioned Unsupported                No. of
  Number                          Report Title                        Issued       Costs*          Costs         Recommendations
Section 5(a)(6) of the Inspector General Act of 1978 as amended requires a listing of each report completed by OIG during the
reporting period. During this period, ED/OIG Audit Services issued 39 audit reports (2 presented in consolidation). In addition, we
issued 18 alternative products, which include 6 interim audit memoranda, 2 alert memoranda, 5 management information reports, 3
audit closeout letters, and 2 memoranda relating to contract pre-award audits1. The audit reports and alternative products are listed
below2.
AUDIT REPORTS
Federal Student Aid
A02-B0026 Audit of Taylor Business Institute’s Administration of       7/8/03      $2,089                                 5
          the Title IV Student Financial Assistance Programs
A04-B0018 Alcorn State University’s Administration of Title IV         8/15/03    $342,505                               24
          Student Financial Assistance Programs Needs
          Strengthening
A04-B0019 Advanced Career Training Institute’s Administration of       9/25/03   $7,469,328                              14
          the Title IV Higher Education Act Programs
A06-C0035 Audit of Flight Safety Academy’s Compliance with             9/29/03   $5,666,525                               3
          Student Financial Assistance Citizenship and Program
          Eligibility Requirements, under Title IV of the Higher
          Education Act of 1965, as amended (HEA)
A07-C0009 Audit of the Colorado Student Loan Program’s                 7/23/03   $2,760,821                               4
          Establishment and Use of Federal and Operating Funds
          for the Federal Family Education Loan Program
A07-C0030 Address Match using the Department’s Student                 8/25/03                                            2
          Financial Assistance (SFA) Application Processing and
          Disbursement Systems - the Federal Student Aid’s
          (FSA) Central Processing System (CPS) and the
          National Student Loan Data System (NSLDS)
A11-C0010 Review of Contingency Planning for Select U.S.               9/30/03                                            4
          Department of Education Information Systems -
          Federal Student Aid (FSA) (Office of the Chief
          Information Officer (OCIO) also designated action
          official for this report.)
A11-C0011 Audit of Federal Student Aid’s Development and               5/22/03                                           13
          Implementation of Oracle Federal Financials
A17-D0005 MANAGEMENT LETTERS                                           4/3/03                                             9
&         Fiscal Years 2002 and 2001 Financial Statement Audits
A17-D0006 U.S. Department of Education and Federal Student Aid
          (OCIO & Office of the Chief Financial Officer (OCFO)
          also designated as action officials for this combined
          report.)
Institute of Education Sciences
A05-C0010 Review of Management Controls Over Scoring of the            6/17/03                                            2
          National Assessment of Educational Progress (NAEP)
          2000




                                                                  13
                                                                                      Semiannual Report To Congress: #47

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (April 1, 2003 to September 30, 2003)
 Report                                                                 Date     Questioned Unsupported        No. of
 Number                          Report Title                          Issued     Costs*       Costs      Recommendations
Office of the Chief Financial Officer
A03-C0021 Review of Aspen Systems Corporation’s (Aspen)                5/6/03                                    3
          administration of the Education Publications (ED Pubs)
          contract (Contract Number ED-98-C0-0007) for the
          period March 13, 1998, through June 30, 2002
A04-C0020 Contract Closeout Audit of Office of Educational             7/28/03    $344,530                       2
          Research and Improvement Contract No. RJ96006001
          at Appalachia Educational Laboratory
A05-C0028 Audit of Governors State University’s (GSU)                  8/18/03     $3,213                        7
          Administration of its Student Support Services and
          Upward Bound Programs (Office of Postsecondary
          Education (OPE) also designated as action official for
          this report.)
A05-D0019 Audit of the C.I. Wilson Academy I’s (Academy) use of        9/22/03    $32,783     $1,044             3
          U.S. Department of Education (ED) funds for the
          period July 1, 2001, through June 30, 2002 (2001-2002
          school year) (Office of Innovation and Improvement
          (OII) also designated as action official for this report.)
A05-D0024 Audit of Career Success High School’s (School) use of        9/30/03    $15,882                        2
          U.S. Department of Education (ED) funds for the
          period July 1, 2001, through June 30, 2002 (project
          period)
A05-D0025 Audit of The Shelby School’s (School) use of U.S.            9/30/03     $4,815                        2
          Department of Education (ED) funds for the period
          August 10, 2001, through August 30, 2002 ( project
          period)
A05-D0030 Audit of the C.I. Wilson Academy II’s (Academy) use          9/26/03    $63,189                        3
          of U.S. Department of Education (ED) funds for the
          period July 1, 2001, through June 30, 2002 (project
          period) (OII also designated as action official for this
          report. )
A06-C0034 Audit of the Texas Education Agency’s (TEA)                  7/8/03                                    2
          Treatment of the Costs of Unused Accrued Vacation
          Leave of Retiring or Separating Employees (terminal
          leave) for the period September 1, 1999, through
          August 31, 2002
A06-D0014 Audit of the 21st Century Community Learning Centers         9/29/03    $24,786    $372,714            2
          (21st Century) grant to Mt. Judea Public School (Mt.
          Judea) for the period June 1, 2000, through January 31,
          2003
A07-D0002 Audit of the Talent Search Program at Case Western      7/11/03         $212,428                       5
          Reserve University (CWRU)
A09-C0026 Northwest Indian College Administration of the U.S.     9/30/03         $632,241                       6
          Department of Education, Office of Vocational and
          Adult Education Grant No. V101A990026
Office of the Chief Information Officer
A07-C0033 Audit of Capital Planning and Investment Management 9/12/03                                            9




                                                                  14
                                                                                    Semiannual Report To Congress: #47

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (April 1, 2003 to September 30, 2003)
 Report                                                               Date     Questioned Unsupported         No. of
 Number                      Report Title                            Issued     Costs*       Costs       Recommendations
A11-D0003 The Department of Education’s Implementation of            9/22/03                                   10
          FISMA
Office of Elementary and Secondary Education
A02-C0011 The Virgin Islands Department of Education-St.             6/5/03                 $1,451,218          6
          Thomas/St. John School District’s Control of
          Equipment Inventory (Office of Special Education and
          Rehabilitative Services (OSERS) and Office of
          Vocational and Adult Education (OVAE) also
          designated action officials for this report.)
A02-C0012 The Virgin Islands Department of Education Did Not         9/30/03   $1,542,928                      18
          Effectively Manage Its Federal Education Funds
A02-C0017 Puerto Rico Department of Education’s Administration       6/10/03     $5,689     $109,701            5
          of Contracts with the League of United Latin American
          Citizens National Educational Service Center (OVAE
          also designated as action official for this report.)
A05-C0029 Audit of Minnesota’s local educational agencies’           9/30/03                                    2
          (LEA) allocations of Elementary and Secondary
          Education Act, as amended, Title I, Part A, funds to
          schools for the period July 1, 2001, through June 30,
          2002 (2001-2002 school year)
A05-D0009 Audit of Cleveland Municipal School District’s Set-        8/6/03     $43,067                         7
          Aside Funds for District-Wide Activities
A06-C0031 Audit of the Migrant Education Program at the Florida      5/2/03                                     3
          Department of Education
A06-C0032 Kansas Department of Education’s Compliance with           5/15/03                                    3
          the Priority for Services Requirements of the Migrant
          Education Program
A06-C0033 California Department of Education’s Compliance with       5/30/03                                    3
          the Priority for Services Requirements of the Migrant
          Education Program
A09-D0014 Charter Schools’ Access to Title I Funds in the State of   7/28/03                                    6
          New York (OII also designated as action official for
          this report.)
Office of Postsecondary Education
A05-D0010 Oversight Issues Related to Guaranty Agencies’      7/31/03                                           5
          Administration of the Federal Family Education Loan
          Program Federal and Operating Funds (FSA also
          designated as action official for this report.)
A07-B0011 Audit of Valencia Community College’s Gaining Early 5/8/03           $1,822,864                       5
          Awareness and Readiness for Undergraduate Programs
          Matching Requirement
A09-C0014 Office of Postsecondary Education, Accrediting      7/23/03                                          13
          Agency Evaluation Unit’s Review of Selected
          Accrediting Agency Standards and Procedures
Office of Special Education and Rehabilitative Services
A02-B0023 Review of Data Reliability for Rehabilitative Services     5/30/03                                    2
          Administration Reporting Under the Government
          Performance and Results Act



                                                                15
                                                                                   Semiannual Report To Congress: #47

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (April 1, 2003 to September 30, 2003)
 Report                                                              Date     Questioned Unsupported             No. of
 Number                         Report Title                        Issued     Costs*       Costs           Recommendations
Office of Vocational and Adult Education
A03-C0019 Audit of Florida’s Management Controls Over Perkins 7/30/03                                                  6
          III Performance Data
A05-D0012 Audit of Indiana’s Management Controls Over Perkins 9/11/03                                                  4
          III Performance Data
ALTERNATIVE AUDIT SERVICES PRODUCTS
Federal Student Aid
A06-B0002 Notice of Audit Termination - Audit of the William D.     5/13/03
          Ford Federal Direct Loan Program (Direct Loan)
          Reconciliation Process (Audit Closeout Letter)
A06-D0019 Texas State Technical College Waco (Audit Closeout        9/18/03
          Letter)
Office of the Chief Financial Officer
X02-D0010 Contract Negotiations, Contract Performance               7/11/03                                           4**
          Measures, and Contract Monitoring (Management
          Information Report State and Local No. 03-01)
X05-D0022 Audit of the Department’s Ability to Identify and         9/18/03                                           1**
          Monitor High-Risk Contracts (Management
          Information Report State and Local No. 03-02)
Office of Elementary and Secondary Education
X06-D0021 States’ Compliance with Priority for Services for         9/30/03                                           3**
          Migratory Children (Management Information Report
          State and Local No. 03-03)
Office of Postsecondary Education
E06-D0008 PLUS Could Be Disbursed to Ineligible Non-Citizens        8/22/03                                           2**
          (Management Information Report Student Financial
          Assistance No. 03-01)
A09-D0019 Audit of Lower Columbia College’s (LCC)                   7/29/03
          administration of the Student Support Services (SSS)
          Program Grant No. P042A970447 (Audit Closeout
          Letter)
Office of the Deputy Secretary
S17-D0004 Suggestions for Improving Department of Education’s       4/2/03                                            2**
          Policies on Expenditures for Presidential Appointees
          and Executive Staff (Management Information Report
          FIN-03-01)
  * For purposes of this schedule, questioned costs include other recommended recoveries.
  ** These are suggestions and not recommendations, and will not be tracked or follow the audit resolution process.
  Note - We identified $690,232 in better use of funds in audit A05-C0029.




                                                               16
                                                                                          Semiannual Report To Congress: #47

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (April 1, 2003 to September 30, 2003)
 Report                                                                   Date     Questioned Unsupported               No. of
 Number                              Report Title                        Issued     Costs*       Costs             Recommendations
     1
      DESCRIPTION OF ALTERNATIVE PRODUCTS
     Interim audit memoranda notify Department management of a serious condition or issue requiring immediate attention that we
     identified in an ongoing assignment.
     Alert memoranda are prepared when a serious condition is identified outside of the agreed-upon objectives of an ongoing
     assignment, or while doing work not related to an on-going assignment (when an audit report will not be issued).
     Management information reports provide management with information that can be useful in carrying out program activities.
     Closeout letters are issued to provide written notification to auditees of audit closure when the decision is made to close an
     assignment without issuing an audit report.
     2
      The interim audit memoranda, alert memoranda, and pre-award memoranda are not identified individually as they are not
     publicly distributed.

Table 3: Other ED/OIG Reports on Education Department Programs
and Activities (April 1, 2003 to September 30, 2003)
         Report Number                                     Title of Report                                               Date Issued
           I13C0022          Review of Management Controls Governing Changes in Discretionary Grants                                  8/1/03
           I13D0015          Campus Crime Statistics Reporting and the Cleary Act                                                 8/26/03
           I13C0003          Review of Lender Inducements                                                                             8/1/03
           I13D0006          OIG Safety/Security Follow-up Report                                                                 6/15/03

Table 4: Inspector General Issued Audit Reports with Questioned
Costs
                                                                                            Number        Questioned1     Unsupported2
A.          For which no management decision has been made before the                          54         $293,353,968     $45,180,9543
            commencement of the reporting period (as adjusted)
B.          Which were issued during the reporting period                                      19          $22,924,360       $1,934,677
                Subtotals (A + B)                                                              73         $316,278,328      $47,115,631
C.          For which a management decision was made during the reporting period                8           $6,996,112       $6,238,361
            (i) Dollar value of disallowed costs                                                            $2,425,112       $1,667,361
            (ii) Dollar value of costs not disallowed                                                       $4,571,000       $4,571,000
D.          For which no management decision has been made by the end of the                   65         $309,282,216      $40,877,270
            reporting period
E.          For which no management decision was made within six months of issuance            46         $286,357,856      $38,942,593
     1Costs are questioned because of either an alleged violation of a provision of a law, regulation, contract, grant, cooperative
     agreement, or other agreement or document governing the expenditure of funds, or a finding that the expenditure of funds for the
     intended purpose is unnessary or unreasonable. Other recommended recoveries, included in questioned costs, are funds
     recommended for reasons other than being questioned or unsupported. The category is usually used for findings involving
     recovery of outstanding funds, revenue earned on federal funds, or any interest due ED resulting from the auditee’s use of funds.
     Amounts reported for this category are combined with questioned costs for reporting in the Semiannual Report to Congress.
     2
      Unsupported costs are costs that, at the time of the audit, were not supported by adequate documentation.
     3Beginning   Balance for Unsupported Costs was increased by $45,500 (A06-B0028) to coincide with database.




                                                                    17
                                                                                     Semiannual Report To Congress: #47

Table 5: Inspector General Issued Audit Reports with
Recommendations for Better Use of Funds
                                                                                                 Number             Dollar Value
A.      For which no management decision has been made before the commencement of the              0                     $0
        reporting period (as adjusted)
B.      Which were issued during the reporting period                                                1                 $690,232
             Subtotals (A + B)                                                                       1                 $690,232
C.      For which a management decision was made during the reporting period                         0                    $0
        (i) Dollar value of recommendations that were agreed to by management                                             $0
        (ii) Dollar value of costs not disallowed                                                                         $0
D.      For which no management decision has been made by the end of the reporting                   1                 $690,232
        period
E.      For which no management decision was made within six months of issuance                      0                   $0

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                             Total        No. of
 Report                                     Report Title                                         Date      Monetary      Recom-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                        Issued     Findings     mendations
Section 5(a)(10) of the Inspector General Act as amended requires a listing of each report issued before the commencement of the
reporting period for which no management decision had been made by the end of the reporting period.
New Since Last Reporting Period
Federal Student Aid
A05-C0014 Educational Credit Managment Corporation’s Administration of the Federal Family       3/18/03   $15,096,156         10
          Education Loan Program Federal and Operating Funds (SAR 46, pg. 12)
          Status: FSA does not fully agree with the recommendations and is reviewing the
          findings to determine other possible recommendations. FSA will be working with
          OIG to resolve these issues.
A05-C0015 Audit of American School of Technology’s Administration of the Title IV, HEA          3/21/03   $1,311,249          13
          Programs, Columbus, Ohio (SAR 46, pg. 12)
          Status: Audit is being reviewed by FSA Chicago Case Team.
A05-D0001 Audit of Educational Credit Management Corporation’s (ECMC) administration of         3/20/03 $103,000,000          7
          the Federal Family Education Loan (FFEL) program Federal and Operating Funds
          for the period April 1, 2000 through March 31, 2001 (OPE also designated as action
          official for this report (SAR 46, pg. 12)
          Status: FSA does not fully agree with the recommendations and is reviewing the
          findings to determine other possible recommendations. FSA will be working with
          OIG to resolve these issues.
A06-C0018 Gretna Career College’s Administration of the Title IV Student Financial             12/19/02   $1,383,470          6
          Assistance Programs (SAR 46, pg. 12)
          Status: Audit was placed on administrative stay on June 17, 2003. FSA/SEC/CMO
          senior managers are reviewing the 90/10 calculations before approving the Final
          Audit Determination letter.
A09-C0013 California Student Aid Commission’s Administration of the Federal Family              3/27/03   $16,458,972         8
          Education Loan Program Federal and Operating Fund (SAR 46, pg. 13)
          Status: FSA does not fully agree with the recommendations and is reviewing the
          findings to determine other possible recommendations. FSA will be working with
          OIG to resolve these issues.




                                                                 18
                                                                                      Semiannual Report To Congress: #47

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                                Total        No. of
 Report                                      Report Title                                           Date      Monetary      Recom-
 Number                   (Prior Semiannual Report [SAR] Number and Page)                          Issued     Findings     mendations
Office of the Chief Financial Officer
A03-C0001 Contract closeout audit of costs claimed for Temple University’s (TU) Laboratory         10/25/02                    1
          for Student Success (LSS), Contract Number RJ96006201, for the period December
          11, 1995, through December 16, 2000 (SAR 46, pg. 13)
          Status: OCFO has performed a reconciliation of the usage of federal cash on hand,
          and it has been determined that Temple University was not overpaid. Contracts
          and Purchasing Operations is working on finalizing the closing out of this contract.
A04-C0014 Audit of Kentucky State University’s (KSU) compliance with the administration of         3/12/03     $28,083         4
          the Title III, Part B, Strengthening Historically Black Colleges and Universities
          Program (SAR 46, pg. 14)
          Status: Audit was originally assigned to OPE and has been reassigned to Post
          Audit Group, Office of the Chief Financial Officer (PAG/OCFO). PAG/OCFO is in
          the process of obtaining documentation to support questioned Title III expenditures.
          PAG/OCFO expects to issue Program Determination Letter (PDL) by November
          30, 2003.
A05-C0026 Audit of Northeastern Illinois University’s (NEIU) Administration of the                 2/25/03    $478,261         2
          Developing Institutions - Hispanic-Serving Institutions (HSI) grant for the period
          October 1, 2000, through October 31, 2002 (SAR 46, pg. 14)
          Status: Audit was originally assigned to OPE and has been reassigned to PAG/
          OCFO. PAG/OCFO has requested information from the auditee and the requested
          information is expected by mid-November 2003.
A07-C0031 Audit of the Talent Search Program at Luther College (SAR 46, pg. 14)                    3/28/03    $219,567         4
          Status: Audit was originally assigned to OPE and has been reassigned to PAG/
          OCFO. The college is to report back to PAG/OCFO by November 31, 2003 on
          additional data it is collecting regarding services for students that were questioned.
          PAG/OCFO expects to issue PDL by December 31, 2003.
Office of Elementary and Secondary Education
A02-C0019 The Virgin Islands Department of Education-St. Croix School District’s Control of 3/31/03           $1,017,416       7
          Equipment Inventory (OSERS also designated as action official for this report)
          (SAR 46, pg. 13)
          Status: OCFO team working with Office of Elementary and Secondary Educaton
          (OESE) to resolve audit.
A05-C0022 Audit of Community Consolidated School District 62’s (District) administration of 2/24/03           $126,709         3
          the 21st Century Community Learning Centers (21st Century) Grant for the period
          June 1, 2000, through May 31, 2002 (OUS also designated as action official for this
          report) (SAR 46, pg. 13)
          Status: Audit was placed on administrative stay on October 17, 2003. OESE and
          (Office of General Counsel) OGC are working on resolving this audit. OGC is
          seeking further assistance from the OIG..
A06-C0030 Audit of the Migrant Education Program at the Texas Education Agency (TEA)          2/4/03                           3
          (SAR 46, pg. 13)
          Status: OESE informed us that a final audit determination letter and Audit
          Clearance Document were signed September 30, 2003. The audit will be removed
          in the next Semiannual Report.




                                                                 19
                                                                                     Semiannual Report To Congress: #47

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                              Total         No. of
 Report                                     Report Title                                          Date      Monetary       Recom-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                         Issued     Findings      mendations
Reported in Previous Semiannual Report
Federal Student Aid
A03-A0022 Audit of Commissioned Sales and Course Length at Wesley College                        1/15/02    $1,431,560        5
          (SAR 44, pg. 14)
          Status: Audit was placed on administrative stay on January 29, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales and course
          length.
A03-B0013 Audit of the Ability-to-Benefit (ATB) Testing Process at Lincoln Technical             5/10/02     $256,946         9
          Institute, Inc. (LTI), Philadelphia, PA (SAR 45, pg. 16)
          Status: Audit was placed on administrative stay on October 15, 2002. A file review
          was requested and is being undertaken before resolution can begin.
A03-B0022 Audit of Wonderlic’s Ability-to-Benefit Program (SAR 44, pg. 14)                        2/5/02                      4
          Status: FSA/CFO informed us that a final audit determination letter was issued on
          April 4, 2003. The audit will be removed in the next Semiannual Report.
A03-B0024 Audit of American College Testing’s Ability-to-Benefit (ATB) Policies and              5/13/02                     12
          Procedures for its Career Programs Assessment Test (CPAt) SAR 45, pg. 16)
          Status: FSA/CFO informed us that a final audit determination letter was issued on
          April 22, 2003. The audit will be removed in the next Semiannual Report.
A04-B0015 Review of Cash Management and Student Financial Assistance Refund Procedures           9/26/02     $997,313         7
          at Bennett College (OPE designated as collateral action office for this report) (SAR
          45, pg. 16)
          Status: FSA informed us that the audit was closed March 14, 2003. The audit will
          be removed in the next Semiannual Report.
A05-A0030 Audit of Commissioned Sales at Olivet Nazarene University (SAR 43, pg. 11)             5/21/01    $3,299,891        4
          Status: Audit was placed on administrative stay on July 26, 2001. FSA and OPE
          will be working with OGC on a settlement agreement with this school now that
          regulatory changes have been made about commissioned sales.
A05-B0003 Audit of Commissioned Sales and Course Length at Benedictine University (SAR           12/13/01    $221,988         5
          44, pg. 14)
          Status: Audit was placed on administrative stay on March 19, 2002. FSA and OPE
          will be working with OGC on a settlement agreement with this school now that
          regulatory changes have been made about commissioned sales and course length.
A05-B0004 Indiana Wesleyan University, Adult and Professional Studies Administration of          9/28/01    $31,682,782       5
          Title IV Programs, Marion, Indiana (SAR 43, pg. 11)
          Status: Audit was placed on administrative stay on October 24, 2001. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales and course
          length.
A05-B0014 Audit of Course Length at Olivet Nazarene University (SAR 43, pg. 12)                  9/28/01                      4
          Status: Audit was placed on administrative stay on October 24, 2001. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about course length.
A05-B0019 Audit of Course Length at Trinity Christian College (Trinity) (SAR 45, pg. 16)         9/17/02     $111,061         3
          Status: Audit was placed on administrative stay on October 15, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about course length.




                                                                20
                                                                                     Semiannual Report To Congress: #47

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                                Total    No. of
 Report                                        Report Title                                        Date      Monetary   Recom-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                           Issued      Findings mendations
A05-B0033 United Student Aid Funds, Inc.’s Administration of the Federal Family Education         4/23/02    $6,626,000    4
          Loan Program Federal and Operating Funds (SAR 45, pg. 16)
          Status: FSA does not fully agree with the recommendations and is reviewing the
          findings to determine other possible recommendations. FSA will be working with
          OIG to resolve these issues.
A06-70005 Professional Judgment at Yale University (SAR 36, pg. 18)                               3/13/98      $5,469      3
          Status: Audit was placed on administrative stay on June 29, 2000. Awaiting a
          policy decision to address and resolve this finding in the final audit determination
          letter.
A06-70009 Professional Judgment at University of Colorado (SAR 37, pg. 17)                        7/17/98     $15,082      4
          Status: Audit was placed on administrative stay on June 29, 2000. Awaiting a
          policy decision to address and resolve this finding in the final audit determination
          letter.
A06-A0001 Interactive Learning Systems’ Administration of the Title IV Student Financial          7/20/01     $990,828     7
          Assistance Programs (SAR 43, pg. 12)
          Status: Audit is still being reviewed by FSA Dallas Case Team.
A06-A0003 International Business College’s Administration of Title IV Student Financial           3/28/01     $461,035     4
          Assistance Programs (SAR 42, pg. 22)
          Status: Audit was placed on administrative stay on September 24, 2001.
A06-A0024 Audit of Commissioned Sales and Course Length at Southern Wesleyan University            9/4/02    $19,451,123   5
          (SAR 45, pg. 16)
          Status: Audit was placed on administrative stay on October 11, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales and course
          length.
A06-B0012 Audit of Los Angeles City College’s Compliance with the Title IV, Student               11/14/01    $14,072      3
          Financial Assistance, Verification Requirements (SAR 44, pg. 15)
          Status: FSA informed us that the Final Audit Determination letter was mailed on
          January 27, 2003. However when AARTS was implemented, the audit was
          inadvertently closed. As result, FSA could not enter the necessary closure
          information into AARTS. The audit will be removed in the next Semiannual Report.
A06-B0014 Audit of United Education Institute’s Compliance with the Title IV, Student              9/6/01      $7,285      1
          Financial Assistance, Verification Requirements (SAR 43, pg. 12)
          Status: FSA informed us that the Final Audit Determination letter was mailed on
          February 20, 2003. However when AARTS was implemented, the audit was
          inadvertently closed. As a result, FSA could not enter the necessary closure
          information into AARTS. The audit will be removed in the next Semiannual Report.
A07-23545 State of Missouri, Single Audit Two Years Ended June 30, 1991                            4/1/93    $1,048,768    18
          Status: Some of the findings involve political issues and require further discussions
          with the General Manager and Chief Operating Officer.
A07-33123 State of Missouri, Single Audit Year Ended June 30, 1992                                 3/7/94     $187,530     18
          Status: Some of the findings involve political issues and require further discussions
          with the General Manager and Chief Operating Officer.
A07-90035 Audit of Commissioned Sales at William Penn University (SAR 43, pg. 12)                 5/15/01    $5,023,447    4
          Status: Audit was placed on administrative stay on August 1, 2001. FSA and OPE
          will be working with OGC on a settlement agreement with this school now that
          regulatory changes have been made about commissioned sales.




                                                                 21
                                                                                       Semiannual Report To Congress: #47

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                                Total    No. of
 Report                                      Report Title                                           Date      Monetary   Recom-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                            Issued     Findings mendations
A07-A0030 Baker University School of Professional and Graduate Study’s Administration of           9/19/02   $15,716,275    7
          Title IV Federal Student Aid Programs (SAR 45, pg. 17)
          Status: Audit was placed on administrative stay on October 11, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales.
A07-A0031 Fontbonne University Options Program’s Administration of Title IV Federal                9/30/02   $12,441,490   7
          Student Aid Programs (SAR 45, pg. 17)
          Status: Audit was placed on administrative stay on October 11, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales.
A07-B0001 Audit of Course Length at William Penn University (SAR 43, pg. 12)                       9/28/01                 4
          Status: Audit was placed on administrative stay on October 24, 2001. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about course length.
A07-B0002 Audit of the National Student Loan Program’s Establishment of the Federal Family         9/27/02   $2,672,941    10
          Education Loan Program Federal and Operating Funds (SAR 45, pg. 17)
          Status: FSA does not fully agree with the recommendations and is reviewing the
          findings to determine other possible recommendations. FSA will be working with
          OIG to resolve these issues.
A09-70015 Associated Technical College (ATC) Eligibility of Institutions to Participate in Title   9/9/98    $8,600,000    7
          IV Programs & Other Issues (SAR 37, pg. 16)
          Status: Audit was placed on administrative stay on June 29, 2000. FSA/SEC/CMO
          senior managers are reviewing the 90/10 calculations before approving the Final
          Audit Determination letter.
A09-C0005 Silicon Valley College’s Administration of the Higher Education Act, Title IV            9/20/02      $436       6
          Programs (SAR 45, pg. 17)
          Status: Program Office informed us that the Final Audit Determination letter was
          mailed on March 5, 2003. The audit will be removed in the next Semiannual
          Report.
N06-90010 Inspection of Parks College’s Compliance with Student Financial Assistance               2/9/00     $169,390     1
          Requirements (SAR 40, pg. 18)
          Status: FSA Dallas Case Team denied school’s recertification on December 31,
          1999. School closed February 5, 2000.
Office of the Chief Financial Officer
A07-C0008 Contract Closeout Audit of Office of Educational Research and Improvement     9/12/02               $320,195     4
          Contract No. RJ96006501 at Northwest Regional Educational Laboratory (SAR 45,
          pg. 17)
          Status: Check was received in amount of $324,845.61 dated May 6, 2002, and
          taken to accounts receivable on May 31, 2002.
Office of the Chief Financial Officer (OCFO) (dealing with discretionary grants) Office of Innovation and
Improvement
A05-C0011 Audit of the Public Broadcasting Service’s (PBS) Administration of the           9/10/02            $149,430     5
          TeacherLine Grant No. R286A000003-01 (Grant) awarded under the
          Telecommunication Project for Mathematics for the period June 1, 2000, through
          May 31, 2001 (SAR 45, pg. 18)
          Status: PAG/OCFO signed a Final Audit Determination letter, and an Audit
          Control Document on September 26, 2003. However, the Audit Control Document
          needed to be corrected. The audit will be removed in the next Semiannual Report.




                                                                  22
                                                                                   Semiannual Report To Congress: #47

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                          Total        No. of
 Report                                     Report Title                                    Date        Monetary      Recom-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                    Issued       Findings     mendations
A05-C0020 Audit of the Public Broadcasting Service’s (PBS) Administration of the Ready-To- 9/10/02      $140,716         4
          Learn Cooperative Agreement No. R295A000002 (Agreement) awarded under the
          Department of Education’s Ready-To-Learn Television Program for the period
          September 1, 2000, through August 31, 2001 (SAR 45, pg. 18)
          Status: PAG/OCFO signed a final audit determination letter, and an Audit Control
          Document on August 12, 2003. However, documents have not been received by the
          OIG. The audit will be removed in the next Semiannual Report.
Office of the Chief Information Officer
A11-C0008 The Department of Education’s Implementation of the Government Information          9/16/02                   26
                                                 1
          Security Reform Act (GISRA) Year 2 (SAR 45, pg. 17)
          Status: Program Office informed us that all of the systems are required to complete
          security certification and accreditation before the audit can be closed.
Office of Elementary and Secondary Education
A01-90006 Puerto Rico Department of Education Needs Major Improvements in Its                9/27/00    $181,305        18
          Administration of the Even Start Program (SAR 41, pg. 22)
          Status: CAROI team effort working on resolution.
A01-A0004 Puerto Rico Department of Education Did Not Administer Properly a $9,700,000       3/28/01    $7,841,493      14
          Contract with National School Services of Puerto Rico (SAR 42, pg. 21)
          Status: CAROI team effort working on resolution.
A02-50200 The Puerto Rico Department of Education Must Institute a Time Distribution         11/14/97                    1
          System (SAR 36, pg. 13)
          Status: CAROI team effort working on resolution.
A02-B0012 Puerto Rico Department of Education Did Not Administer Properly Title I            9/28/01    $8,412,280      10
          Contracts with National School Services of Puerto Rico for the 1999/2000 and
          2000/2001 School Years (SAR 43, pg. 11)
          Status: CAROI team effort working on resolution.
A02-B0025 Puerto Rico Department of Education Did Not Administer Properly Three              9/12/02    $2,146,023      10
          Contracts with R.V. Research and Management Group, Inc. (SAR 45, pg. 18)
          Status: CAROI team effort working on resolution.
A03-B0023 Audit of Caroline Wilder Harris (C.W. Harris) Elementary School’s Federal Grant    9/17/02     $43,159         2
          Expenditures for the period July 1, 1999, through June 30, 2001 (SAR 45, pg. 18)
          Status: OESE informed us that a final audit determination letter was signed on
          September 30, 2003. The audit will be removed in the next Semiannual Report.
A05-B0011 Audit of the Title I, Part A, Targeted Assistance Schools Grant (Grant)             8/2/02    $338,571         4
          Administered by the Mount Clemens Community Schools District (District) for the
          July 1, 1997, through June 30, 1998, Award Year (SAR 45, pg. 18)
          Status: OESE discussed with OCFO that the audit would continue on
          administrative stay. Audit was placed on administrative stay on April 2, 2003.
A05-C0012 Audit of East Cleveland City Schools’ (ECCS) Administration of the 21st Century    9/18/02    $349,637         9
          Community Learning Centers (21st Century) Grant at Kirk Middle School (Kirk)
          for the period June 1, 1998, through December 31, 2001 (SAR 45, pg. 18)
          Status: Audit was placed on administrative stay on October 17, 2003. OESE and
          OGC are working on resolving this audit. OGC is seeking further assistance from
          the OIG..
Office of Safe and Drug Free Schools
A01-90007 Puerto Rico Department of Education Needs Major Improvements in its                9/27/00     $82,452        17
          Administration of the Governor’s Safe and Drug-Free Schools Program (SAR 41,
          pg. 22)
          Status: CAROI team effort working on resolution.



                                                               23
                                                                                       Semiannual Report To Congress: #47

Table 6: Unresolved Reports Issued Prior to April 1, 2003
                                                                                                                 Total         No. of
 Report                                      Report Title                                          Date        Monetary       Recom-
 Number                   (Prior Semiannual Report [SAR] Number and Page)                         Issued       Findings      mendations
Office of Special Education and Rehabilitative Services
A02-B0014 Audit of the Puerto Rico Vocational Rehabilitation Administration (PRVRA) (SAR 6/26/02               $15,800,000       5
          45, pg. 18)
          Status: The Program Office is still working on resolving this audit. A long list of
          obligations and unliquidated obligations are being examined.
  1
   Restricted Information.
  Note - Status comments reflect documents received, comments agreed to, or comments provided by the Department.

Table 7: Investigation Services Cumulative Actions
(April 1, 2003 to September 30, 2003)
                                                                                                                  Fines/       Civil
                 Summary of Investigation                         Subject Name        Action This Period        Restitutions Recoveries
INSTITUTIONAL FRAUD
Failure to Make Refunds/Refund Fraud
Former school controller issued refunds to non-students          Zennia Hayes       Sentenced: 4/29/03            $31,329
Owner, president, former director, and other school officials    Baran Institute of Civil Settlement: 5/6/03
agreed to settlement pertaining to participation in Title IV     Technology Inc.
programs
Former school owner failed to refund approximately $564,000      Mary Hendrick*     Indicted: 7/29/03
in Title IV funds and provided false statements to obtain $1.5
million
Instructing Students How to Falsify FAFSAs
Eight admissions representatives helped hundreds of students     Theresa Leon      Convicted: 7/9/03             $243,163
falsify student aid applications                                                   Sentenced: 9/15/03
                                                                 Irma Warren       Convicted: 7/9/03             $193,682
                                                                                   Sentenced: 9/16/03
                                                                 Maria E. Mena     Convicted: 7/9/03              $45,590
                                                                                   Sentenced: 9/22/03
                                                                 Andrea del        Convicted: 5/29/03             $42,955
                                                                 Carmen Mongalo Sentenced: 8/15/03
                                                                 Andrea C. Garrote Convicted: 5/29/03            $138,575
                                                                                   Sentenced: 8/11/03

Falsifying Application to Participate in Programs
Individual previously debarred from business with the            Carlos Alvarez     Convicted: 4/29/03           $600,000
Department purchased school in Puerto Rico and embezzled                            Sentenced: 7/24/03
$600,000 in Pell grants
Fraudulent Work-Study
Individual presented fraudulent time cards for payment under     Lisa Costa         Civil Judgment: 7/8/03                     $11,573
Work-Study program
Former school employee falsified federal work-study student      Alice Pruitt       Sentenced: 8/29/03            $1,959
employee timesheets and forged and cashed student’s work-
study checks
Former student employee at school’s financial aid office         Robert Jones*      Indicted: 9/17/03
embezzled money from work-study program




                                                                   24
                                                                                      Semiannual Report To Congress: #47

Table 7: Investigation Services Cumulative Actions
(April 1, 2003 to September 30, 2003) (Cont.)
                                                                                                                Fines/       Civil
                  Summary of Investigation                        Subject Name       Action This Period       Restitutions Recoveries
School Employee Theft
Former financial aid officer submitted false FFEL applications   Amy Schachter     Convicted: 6/3/03            $12,000
and fraudulently received $248,500                                                 Sentenced: 8/23/03
Former school employee submitted false FFEL applications         Lisa Herrmann     Convicted: 7/2/03
and fraudently received more than $182,000
Former financial aid director at photography school submitted    Keith Magee       Convicted: 6/9/03
FFEL applications under fictitious names
Former school accountant embezzled approximately $146,000        Glenda Shirley    Sentenced: 6/27/03          $247,408
in Title IV finds
Community college employee stole and embezzled student loan      Cynda Long        Sentenced: 7/1/03            $30,272
checks
Former college comptroller embezzled approximately $640,000 Louiston Louis    Convicted: 7/15/03
Former school accountant issued fraudulent student refund   Vanessa Neal*     Indicted: 7/22/03
checks to individuals who paid her kickbacks                Dianne Taylor* Indicted: 7/22/03
                                                            Antonio Burton* Indicted: 7/22/03
                                                            Joe Lee Williams* Indicted: 7/22/03
                                                            Roger Williams* Indicted: 7/22/03
                                                            Monica Hopson* Indicted: 7/22/03
                                                            Denozanna         Indicted: 7/22/03
                                                            Moore*
                                                            Leigh Webb*       Indicted: 7/22/03
Former school employee extorted money from student’s refund Betty Smalls Rush Sentenced: 7/28/03
check
Collusion Between Officials and Students
Individual conspired with financial aid director to illegally    Linda Lee Stewart Convicted: 7/7/03
obtain student loans
Individual conspired with financial aid director to illegally    Stephanie Wanzo Indicted: 6/18/03
obtain student loans                                                             Convicted: 7/7/03
Individual conspired with school financial aid director and      David Carlton   Convicted: 8/28/03
received kickbacks from student loan checks from individuals     Edwards
he recruited to illegally receive aid
Individual conspired with school financial aid director and      Milow Rayvell     Convicted: 8/28/03
received kickbacks from student loan checks from individuals     LeBlanc
he recruited to illegally receive aid
Submission of False Documents
Former grant administrator at school submitted false reports to Thomas             Indicted: 6/25/03
increase grant funds to the school and used money for ineligible Flaschberger*
activities
RECIPIENT FRAUD
Falsification of Income
Individual falsified income to receive student aid               Chanda Brown     Convicted: 5/29/03            $19,542
                                                                                  Sentenced: 9/12/03
Individual falsified marital status to obtain student aid        Nicole Osborne* Indicted: 7/30/03
Individual falsified income and marital status to obtain Pell    Evelyn Pastrana- Civil Settlement: 9/26/03                 $22,700
Grants                                                           Bon



                                                                  25
                                                                                   Semiannual Report To Congress: #47

Table 7: Investigation Services Cumulative Actions
(April 1, 2003 to September 30, 2003) (Cont.)
                                                                                                           Fines/       Civil
                 Summary of Investigation                     Subject Name        Action This Period     Restitutions Recoveries
Individuals made false statements to obtain student aid      Dennis L.          Indicted: 5/14/03
                                                             Lukasik*           Arrested: 6/13/03
                                                             Deborah D.         Indicted: 5/14/03
                                                             Lukasik*           Arrested: 6/13/03
Individual under-reported income to obtain Pell Grants       Kayce Ofodile      Indicted: 7/28/03
                                                                                Convicted: 9/2/03
Falsification of Identity/Identity Theft
Individual used false Social Security number to obtain student Christina          Indicted: 4/3/03
grants and loans after previously defaulting on loans          Coleman*           Arrested: 4/9/03
Individuals used aliases to cash student aid refund checks     Grady McCrary      Convicted: 4/21/03
                                                               Brian Kornegay     Convicted: 4/21/03       $84,115
                                                                                  Sentenced: 9/8/03
                                                                 Sean McCrary     Convicted: 4/21/03       $5,982
                                                                                  Sentenced: 7/24/03
                                                                 Tasha Gordon     Convicted: 4/25/03
                                                                 Carlton McCrary Convicted: 6/6/03
                                                                 Jamillah Allen   Sentenced: 7/22/03       $6,006
                                                                 Ramona K. Barber Sentenced: 7/22/03       $8,182
                                                                 Shonda Feggins Sentenced: 7/22/03         $3,153
Individual falsely claimed U.S. citizenship to obtain FFEL and Ruth Jean Baptiste Sentenced: 5/9/03        $9,075
Pell grant funds
Individual used false name, Social Security number,              Anthony Taylor Civil Judgment: 9/2/03                 $30,664
identification card, and income information to obtain Pell
grants and student loans
Individual used false Social Security number to obtain student Willie J. Reed     Sentenced: 6/5/03        $9,950
aid
Illegal immigrant bought identity papers and created new         Berg Hyacinthe Indicted: 7/01/03
identity to obtain student aid                                                    Convicted: 8/27/03
Individual used deceased husband’s Social Security number to Donna Hites          Sentenced: 6/17/03       $5,244
obtain student aid
Individual used deceased brother’s Social Security number to Michael Wayne Convicted: 7/17/03
obtain student aid after previously defaulting on student loans Jennings
in his own name
Individual used another person’s Social Security number to       Angela D.        Arrested: 7/29/03
obtain Pell grants and loans and defaulted on loans under the Wright*
victim’s name
Individual used false Social Security number to obtain Pell      Sherron M.       Convicted: 8/1/03
grants and student loans                                         Gouacide
Student used another person’s name and Social Security           Robb Lazenby     Sentenced: 8/18/03
number to obtain student aid
Individual used prison inmates’ identities to obtain student aid John Edward      Arrested: 9/2/03
                                                                 Christensen*
Individual bought another person’s identity to obtain student Eddie L. Lewis* Indicted: 8/29/03
aid
Former student used another person’s name and Social Security Toccaro Bates*      Indicted: 9/10/03
number to obtain direct and PLUS loans




                                                               26
                                                                                        Semiannual Report To Congress: #47

Table 7: Investigation Services Cumulative Actions
(April 1, 2003 to September 30, 2003) (Cont.)
                                                                                                                   Fines/       Civil
                  Summary of Investigation                         Subject Name        Action This Period        Restitutions Recoveries
Individual used fraudulent driver’s license to cash stolen        Michelle Brown     Convicted: 6/11/03           $22,099
student aid checks                                                                   Sentenced: 9/17/03
Falsification of Citizenship
Former student falsely claimed U.S. citizenship to obtain         Thelma Idalia      Arrested: 6/13/03             $11,533
student aid                                                       Gener              Convicted: 8/15/03
Individual falsely claimed U.S citizenship to obtain aid          Parulian Sitorus   Convicted: 7/8/03
Falsification of Eligibility
Former student misrepresented graduate school eligibility to      Brian W. Cantwell Convicted: 8/27/03
obtain student aid
Foreign School Recipient Fraud
Individual claimed to be student at schools in the United         Shane Bybee*       Arrested: 7/31/03
Kingdom and made thousands of fraudulent student aid
applications
Individual forged school certifications, exceeding loan limits    Max Noel*          Superceding Indictment:
and conspired with foreign fraud ring to fraudulently obtain                         9/17/03
FFEL funds                                                        Herold Pierre-     Superceding Indictment:
                                                                  Louis*             9/17/03
Fraudulent Loan Discharges/Deferments
Individual falsely claimed disability to have loan payment        Amy R. Parker      Indicted: 4/10/03             $5,600
discharged                                                                           Convicted: 5/27/03
                                                                                     Sentenced: 8/15/03
Individual falsely claimed disability to have loans totaling      Robin Cannon*      Indicted: 7/31/03
$20,593 discharged
Former student submitted forged doctor’s signature to claim       Tonya D. Ryans     Convicted: 7/30/03
disability to have loan payment discharged
Individual fraudulently received unclaimed property               Adriese Thomas* Indicted: 8/26/03
Fraudulent Online Schooling
Other
Individual used stolen bank information to post online student    Tamela N. Nunn* Indicted: 7/29/03
loan payments to student loan account and used the loan money     Daresse Leigh* Indicted: 7/29/03
to make payments on personal accounts
Individual attempted to obtain Pell grants after forging          Ebonie Gray        Convicted: 8/12/03            $2,000
instructors’ signatures, stole, and cashed student aid
Former student forged father’s signature on promissory note for   Kelly Ketcham      Civil Judgment: 9/16/03                   $1,953
student aid
FINANCIAL AID PREPARER FRAUD
Clients Prosecuted
School teacher under-reported income, created false             Lloyd Norman         Sentenced: 5/16/03            $30,584
documents, made false statements, and used fraudulent
financial aid preparer to obtain student aid
Made false statements on FAFSA applications so dependent        John Carter          Civil Settlement: 5/23/03                 $4,200
children would receive federal financial aid to which they were
not entitled. These false statments included misrepresenting
marital status, income, family size and the number of family
members attending college (5/23/03)



                                                                   27
                                                                                      Semiannual Report To Congress: #47

Table 7: Investigation Services Cumulative Actions
(April 1, 2003 to September 30, 2003) (Cont.)
                                                                                                             Fines/    Civil
                   Summary of Investigation                        Subject Name      Action This Period Restitutions Recoveries
Made false statements on FAFSA applications so dependent          Michael Glaser   Civil Settlement: 5/23/03          $14,173
children would receive federal financial aid to which they were   Marlene Glaser
not entitled. These false statements included misrepresenting
marital status, income, family size, and number of family
members attending college (5/23/03)
Individuals misrepresented marital status and income to obtain    Irwin Zaba       Civil Settlement: 5/23/03                $7,500
student aid (5/23/03)                                             Marsha Zaba
Individuals under-reported income and used fraudulent             Kenneth Camp     Convicted: 6/13/03          $49,870
financial aid preparer to obtain student aid                      Phyllis Camp     Sentenced: 9/30/03
Preparers Prosecuted
Individual misrepresented income on student aid applications      Vetevely Faye    Sentenced: 4/10/03          $12,936
and income tax return to obtain aid                               Stephens
NON-TITLE IV PROGRAM FRAUD
Former school Title III director participated in embezzlement of Robbie Bateman Sentenced: 5/19/03             $24,622
Title III funds
School engineer made false statements enabling son to illegally Thomas Reilly   Convicted: 9/19/03
receive Title I funds
INTERNAL INTEGRITY
Telephone technician, Department employees, her relatives,    Maurice Hayes        Sentenced: 5/19/03
and others defrauded Department of more than $1 million       Jeffrey Morgan       Sentenced: 5/19/03
                                                              Elizabeth C.         Sentenced: 8/4/03
                                                              Mellen
                                                              Phillip Burrough     Sentenced: 8/4/03
                                                              Jr.
                                                              Luther Mellen III    Sentenced: 8/4/03                        $50,000
Individuals illegally diverted education funds and used money Beverly Cobham       Indicted: 5/29/03
for personal benefit                                                               Convicted: 8/14/03
                                                              Diallo Cobham*       Indicted: 5/29/03
                                                              Roger P. Bowen       Indicted: 5/29/03
                                                                                   Convicted: 8/20/03
Individual participated in defrauding the Department              Christopher      Sentenced: 5/30/03           $4,927
                                                                  Griffin
Former Department employee used government computer for           Robert E. Jamroz Sentenced: 6/12/03
child pornography material
Former Department employee used government credit card for Silvader Denise         Sentenced: 9/10/03          $146,977
personal benefit                                           Estep
   * This person has been charged with criminal acitivity, but has not been convicted. Criminal complaints, informations, and
   indictments are methods by which persons are charged with criminal activity and raise no inference of guilt. An individual is
   presumed innocent until competent evidence is presented to a jury that establishes guilt beyond a reasonable doubt.

   The Semiannual Report to Congress No. 46, October 1, 2002 - March 31, 2003, page 4 had incorrect information on the action
   involving the Florida Institute for Workforce Innovation (FIWI). The OIG investigation of FIWI resulted in an agreement whereby
   FIWI agreed to repay $285,568 in federal vocational rehabilitation funds. Also, page 25, Table 7 incorrectly stated that Dr. Bruce
   Waite was sentenced on October 21, 2002 for embezzling vocational rehabilitation funds in the amount $285,568. No legal action
   of any type was brought against Dr. Waite.




                                                                   28
                                                                                Semiannual Report To Congress: #47

Table 8: Statistical Profile: April 1, 2003 to September 30, 2003
                                                                                  Six-month Period    Fiscal Year Ending
                                                                                   Ending 9/30/03           9/30/03
OIG AUDIT REPORTS ISSUED                                                                        39                    66
Questioned Costs                                                                        $20,989,683         $157,181,659
Unsupported Costs                                                                        $1,934,677           $5,385,633
Recommendations for Better Use of Funds                                                    $690,232             $690,232
OTHER OIG PRODUCTS                                                                              22                    50
(Inspections, Action Memoranda, Alert Memoranda, Closeout Letters, Management
Information Reports, Preaward Reviews, and Special Projects)
OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                                                  17                    43
Questioned Costs Sustained                                                                 $757,751          $47,193,616
Unsupported Costs Sustained                                                              $1,667,361           $5,069,952
Additional Disallowances Identified by Program Managers                                     $10,671           $8,543,330
Management Commitment to the Better Use of Funds                                                $0                    $0
INVESTIGATIVE CASE ACTIVITY
Cases Opened                                                                                   102                   184
Cases Closed                                                                                   105                  2261
Cases Active at End of Period                                                                  339                   339
Prosecutorial Decisions                                                                         70                  1752
 -Accepted                                                                                      45                  1173
 -Declined                                                                                      25                   584
INVESTIGATION RESULTS
Indictments/Informations                                                                        38                   975
Convictions/Pleas                                                                               44                   896
Fines Ordered                                                                               $75,450             $98,8297
Restitution Payments Ordered                                                             $1,822,775         $13,821,9848
Civil Settlements/Judgments (#)                                                                 19                    81
Civil Settlements/Judgments ($)                                                            $382,920           $3,536,837
Recoveries                                                                                  $13,003            $668,4539
Forfeitures/Seizures                                                                        $58,748              $58,748
  1Includes 1 case not previously reported.
  2
   Includes 23 cases not previously reported.
  3Includes 18 cases not previously reported.
  4
   Includes 5 cases not previously reported.
  5Includes 17 cases not previously reported.
  6Includes 2 cases not previously reported.
  7Includes 1 case totaling $1,377 not previously reported.
  8Includes 2 cases totaling $288,018 not previously reported.
  9Includes 2 cases totaling $247,207 not previously reported.




                                                                 29
U.S. Department of Education
Rod Paige
Secretary


Office of Inspector General
John P. Higgins, Jr.
Inspector General


Counsel’s Office
Mary Mitchelson
Counsel to the Inspector General


November 2003

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While
permission to reprint this publication is not necessary, the citation should be: U.S. Department of
Education, Office of Inspector General, Counsel’s Office, Semiannual Report to Congress, No. 47,
Washington, DC 20202.

To order copies of this report:

   •   Write to: ED Pubs, Education Publications Center, U.S. Department of Education, P.O. Box
       1398, Jessup, MD 20794-1398;

   •   Fax your request to: (301) 470-1244;

   •   E-mail your request to: edpubs@inet.ed.gov;

   •   Call in your request toll-free: 1-877-433-7827 (1-877-4-ED-PUBS). If 877 service is not yet
       available in your area, call 1-800-872-5327 (1-800-USA-LEARN). Those who use a telecom-
       munications device for the deaf (TDD) or a teletypewriter (TTY) call 1-800-437-0833; or

   •   Order online at: www.ed.gov/pubs/edpubs.html.

This report is also available on the Department’s Website, at: www.ed.gov/about/offices/list/oig.

On request, this publication is available in alternate formats, such as Braille, large print, audiotape, or
computer diskette. For more information, please contact the Department’s Alternate Format Center at
(202) 260-9895 or (202) 205-8113.
U.S. Department of Education
Washington, D.C. 20202-1510

     Official Business
Penalty for Private Use, $300


          Anyone knowing of fraud, waste, or abuse involving Department of Education funds
                            or programs should call, write, or e-mail the


                                      Inspector General’s Hotline

                                       THE TOLL-FREE NUMBER IS:
                                     1-800-MIS-USED (1-800-647-8733)


                                       THE MAILING ADDRESS IS:
                                        Inspector General’s Hotline
                                        Office of Inspector General
                                       U.S. Department of Education
                                             330 C Street, SW
                                        Washington, DC 20202-1510


                                         THE E-MAIL ADDRESS IS:
                                            oig.hotline@ed.gov

                          Your report may be made anonymously or in confidence.

                                 For information on identity theft prevention
                                          for students and schools,


                                THE OIG’S IDENTITY THEFT HOMEPAGE IS:
                                            www.ed.gov/misused




                                   U.S. DEPARTMENT OF EDUCATION
                                   OFFICE OF INSPECTOR GENERAL
                                 SEMIANNUAL REPORT TO CONGRESS
